HHS/OIG-Audit--"Review of Title IV-E Training Costs, Michigan Family Independence Agency, (A-05-96-00043)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Review of Title IV-E Training Costs, Michigan Family Independence Agency (A-05-96-00043)
June 17, 1997
Complete Text of Report is available in PDF format
(88 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our review of training costs claimed
by the Michigan Family Independence Agency (State agency) under the Title IV-E
Foster Care and Adoption Assistance program. The audit objective was to determine
whether the amounts claimed for reimbursement represent allowable and allocable
costs.
The State agency claimed $6,052,839 (Federal share - $3,786,966) of direct and
allocated training costs for the period October 1, 1992 through September 30,
1995. Of this amount, $2,437,187 (Federal share - $1,732,118) is ineligible
for reimbursement.